U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Common Ground Healthcare Cooperative v. United States of America,
S.Ct. No. 20-1200

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 24,
2021, and placed on the docket on March 1, 2021. The government’s response is due on March
31, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 30, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1200
COMMON GROUND HEALTHCARE COOPERATIVE
USA

DAVID M. COOPER
QUINN EMANUEL URQUHART & SULLIVAN
LLP
51 MADISON AVE.,
22ND FLOOR
NEW YORK, NY 10010
KATHLEEN MARIE SULLIVAN
QUINN EMANUEL URQUHART & SULLIVAN
LLP
865 S. FIGUEROA ST.
10TH FLOOR
LOS ANGELES, CA 90017
213-443-3000
KATHLEENSULLIVAN@QUINNEMANUEL.CO
M
STEPHEN A. SWEDLOW
QUINN EMANUEL
191 N. WACKER DRIVE
SUITE 2700
CHICAGO, IL 60606-1881
312-705-7488
STEPHENSWEDLOW@QUINNEMANUEL.COM
COLIN E. WRABLEY
REED SMITH LLP
REED SMITH CENTRE
225 FIFTH AVENUE
PITTSBURGH, PA 15222-2716
412-288-3548
CWRABLEY@REEDSMITH.COM

